—~
|

C@OCKLE

Legal Briefs

Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-645

STANDING AKIMBO, LLC, A COLORADO LIMITED
LIABILITY COMPANY; PETER HERMES,

AN INDIVIDUAL; KEVIN DESILET, AN INDIVIDUAL;
SAMANTHA MURPHY, AN INDIVIDUAL; AND
JOHN MURPHY, AN INDIVIDUAL,

Petitioners,
Ve
UNITED STATES OF AMERICA, THROUGH ITS
AGENCY OF THE INTERNAL REVENUE SERVICE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2560 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 25th day of February, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

R GENERAL NOTARY-State of Nebraska
i RENEE J. GOSS Kanee. 9. in Queda Chk

 

u My Comm. Exp. September 5, 2023

 

Notary Public Affiant 40535
